TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                          Office of Inspections and Evaluations




                       Compliance With Constitution Day
                           Training Requirements



                                          June 6, 2014

                           Reference Number: 2014-IE-R007




       This report has cleared the Treasury Inspector General for Tax Administration disclosure
         review process and information determined to be restricted from public release has
                                  been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                        DEPARTMENT OF THE TREASURY
                                              WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 6, 2014


 MEMORANDUM FOR CHIEF, COMMUNICATIONS AND LIASION
                IRS HUMAN CAPITAL OFFICER


 FROM:                           R. David Holmgren
                                 Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                        Final Inspection Report – Compliance With Constitution Day Training
                                 Requirements (# IE-14-004)

 This report presents the results of the Treasury Inspector General for Tax Administration’s
 (TIGTA) inspection to determine whether the Internal Revenue Service (IRS) complies with the
 requirements of the Consolidated Appropriations Act of 20051 to provide training materials on
 the U.S. Constitution to newly hired employees and to all IRS employees each year on
 September 17th, Constitution Day and Citizenship Day.2

 Synopsis
 TIGTA found that the IRS complies with the requirements of the Consolidated Appropriations
 Act of 2005 by providing training and educational materials about the Constitution to new
 employees as part of their orientation process and to all employees each year on September 17th.
 While the IRS meets the requirements of the law, it has the opportunity to relate the training
 material more to its mission, as some other Federal agencies have done. For example, the IRS
 might elaborate on how its taxing authority is derived from the Constitution.
 The IRS agreed to the facts in the draft report (see Appendix VI).
 If you have any questions related to this report, please contact me or Kevin P. Riley, Director,
 Office of Inspections and Evaluations.




 1
     Pub. L. No. 108-447, 118 Stat. 2809 (2004).
 2
     Pub. L. No. 108-447, Section 111.
                                          Compliance With Constitution Day
                                              Training Requirements




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 4
          Appendix II – Major Contributors to this Report ......................................... Page 5
          Appendix III – Report Distribution List ....................................................... Page 6
          Appendix IV – Public Law 108-447, Section 111 ........................................ Page 7
          Appendix V – Internal Revenue Service Spotlight Dated
          September 17, 2013 (Excerpt) ...................................................................... Page 8
          Appendix VI – Management’s Response to the Draft Report ...................... Page 9
                                      Compliance With Constitution Day
                                          Training Requirements




                                              Background

In 2004, Senator Robert Byrd of West Virginia included provisions in the Consolidated
Appropriations Act of 20051 designating September 17th of each year as “Constitution Day and
Citizenship Day.” The legislation requires the head of each Federal agency or department to
provide educational and training materials concerning the U.S. Constitution to each new
employee of the agency or department as part of the orientation materials and to all employees of
the agency or department on September 17th of each year.2
The Treasury Inspector General for Tax Administration (TIGTA) reviewed the Internal Revenue
Service’s (IRS) educational and training materials on the Constitution for Calendar Years 2012
and 2013 from the Human Capital Office and the Office of Communications and Liaison.
TIGTA’s review took place during February and March 2014 and was performed in accordance
with the Council of the Inspectors General for Integrity and Efficiency Quality Standards for
Inspections and Evaluations.
Detailed information on the review’s objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




1
    Pub. L. No. 108-447, 118 Stat. 2809 (2004).
2
    Pub. L. No. 108-447, Section 111.
                                                                                          Page 1
                                    Compliance With Constitution Day
                                        Training Requirements




                                      Results of Review

TIGTA determined that the IRS complied with the Consolidated Appropriations Act of 2005.
Newly hired employees receive orientation kits that are “pushed”3 to them and include a
brochure in both electronic and hard copy form titled “Constitution Initiative,” which contains
basic information about the Constitution. The kits are discussed so that new hires will know
what is in them and the importance of reading the information. While this information is
provided to each new employee, the IRS does not have a monitoring or tracking system in place
to determine if new hires read each form or brochure in their orientation kits.
Annually on or about September 17th, the IRS provides educational and training materials on the
Constitution to all employees. Specifically, the Office of Internal Communications uses
Constitution Day Spotlight (a “pulled”4 communication) articles, sometimes in the form of a
10-question quiz, to educate employees about the Constitution and its importance. The Spotlight
is an online IRS publication designed to provide information on various topics such as health,
safety, career advancement, and different cultural and current events.
The readership statistics for Calendar Years 2012 and 2013 Constitution Day Spotlight articles
that were posted are as follows. The IRS ran two Constitution Spotlight articles in 2012 (a quiz
for Constitution Day and the quiz results).
       September 12, 2012 Spotlight: What’s your Constitution IQ?; 5,408 readers.
       September 17, 2012 Spotlight: What’s your Constitution IQ? The results are in;
        4,897 readers.
       September 17, 2013 Spotlight: 4,440 very important words; 7,104 readers
        (see Appendix V for an excerpt of this Spotlight article.)
From analysis of the submitted documentation, TIGTA determined that the IRS complies with
the requirements of the Consolidated Appropriations Act of 2005 to provide each new employee
with educational and training materials concerning the Constitution as part of the orientation
materials and to provide educational and training materials concerning the Constitution to all
employees on September 17th of each year.
While the IRS meets the requirements of the law, it has the opportunity to relate the training
material more to its mission, as other Federal agencies, such as the Department of Defense and


3
 “Pushed” IRS communications are those that are delivered to recipients, for example, by e-mail.
4
 “Pulled” IRS communications are those that employees must navigate to a location, for example, to a site on the
IRWeb (the IRS intranet) to access. See Appendix V for an excerpt of a sample pulled communication.
                                                                                                           Page 2
                                    Compliance With Constitution Day
                                        Training Requirements



the Bureau of the Census,5 have done. One example is to describe how its taxing authority is
derived from the Constitution.




5
 See websites: http://constitutionday.cpms.osd.mil/ (last visited Mar. 31, 2014) and
http://www.commerce.gov/blog/category/2233 (last visited Mar. 31, 2014).

                                                                                         Page 3
                                      Compliance With Constitution Day
                                          Training Requirements



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) complies with the requirements of the Consolidated Appropriations Act of 20051 to
provide training materials on the U.S. Constitution to newly hired employees and to all IRS
employees each year on September 17th, Constitution Day and Citizenship Day.2 To accomplish
this objective, we:
     I.    Reviewed the Consolidated Appropriations Act of 2005 to clearly understand the
           requirements of the legislation.
    II.    Identified and obtained the educational and training materials related to the
           U.S. Constitution that the IRS provided to employees in Calendar Years 2012 and 2013.
           A. Interviewed key IRS staff responsible for providing orientation and training to new
              employees to determine compliance with the requirements of the Consolidated
              Appropriations Act of 2005. We determined whether the IRS documented that the
              employees completed the training.
           B. Interviewed key IRS staff responsible for providing educational and training materials
              concerning the Constitution on September 17th to all employees each calendar year in
              compliance with the requirements of the Consolidated Appropriations Act of 2005.
              We identified the method used to provide the training and determined whether the
              IRS documented that all employees completed the training.




1
    Pub. L. No. 108-447, 118 Stat. 2809 (2004).
2
    Pub. L. No. 108-447, Section 111.
                                                                                             Page 4
                              Compliance With Constitution Day
                                  Training Requirements



                                                                 Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
Mark J. Anderson, Program Analyst




                                                                       Page 5
                            Compliance With Constitution Day
                                Training Requirements



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Communications and Liaison CL
Deputy IRS Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Program Analyst, Communications and Liaison CL
       IRS Human Capital Officer OS:HC




                                                                        Page 6
                                         Compliance With Constitution Day
                                             Training Requirements



                                                                                                        Appendix IV

                         Public Law 108-447, Section 111                                           1




SEC. 111.
(a) The head of each Federal agency or department shall—
       (1) provide each new employee of the agency or department with educational and training
           materials concerning the United States Constitution as part of the orientation materials
           provided to the new employee; and
       (2) provide educational and training materials concerning the United States Constitution to
           each employee of the agency or department on September 17 of each year.
(b) Each educational institution that receives Federal funds for a fiscal year2 shall hold an
    educational program on the United States Constitution on September 17 of such year for the
    students served by the educational institution.
(c) Title 36 of the United States Code, is amended—
       (1) in section 106—
           (A) in the heading, by inserting ‘‘Constitution Day and’’ before ‘‘Citizenship Day’’;
           (B) in subsection (a), by striking ‘‘is Citizenship Day.’’ and inserting ‘‘is designated as
               Constitution Day and Citizenship Day.’’;
           (C) in subsection (b)—
                (i) by inserting ‘‘Constitution Day and’’ before ‘‘Citizenship Day’’;
                (ii) by striking ‘‘commemorates’’ and inserting ‘‘commemorate’’; and
                (iii) by striking ‘‘recognizes’’ and inserting ‘‘recognize’’;
           (D) in subsection (c), by inserting ‘‘Constitution Day and’’ before ‘‘Citizenship Day’’
              both places such term appears; and
           (E) in subsection (d), by inserting ‘‘Constitution Day and’’ before ‘‘Citizenship Day’’;
               and
       (2) in the item relating to section 106 of the table of contents, by inserting ‘‘Constitution Day
           and’’ before ‘‘Citizenship Day’’.
(d) This section shall be without fiscal year limitation.


1
    Pub. L. No. 108-447, Section 111, 118 Stat. 2809 (2004).
2
    A fiscal year is any yearly accounting period, regardless of its relationship to a calendar year.
                                                                                                              Page 7
                 Compliance With Constitution Day
                     Training Requirements



                                                    Appendix V

      Internal Revenue Service Spotlight Dated
            September 17, 2013 (Excerpt)




Source: IRWeb.




                                                         Page 8
           Compliance With Constitution Day
               Training Requirements



                                              Appendix VI

Management’s Response to the Draft Report




                                                    Page 9
